January 18, 2013

TO:            James M. Anderson, M.D., Ph.D.
               Director
               Division of Program Coordination, Planning, and Strategic Initiatives
               National Institutes of Health


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Independent Attestation Review: National Institutes of Health Fiscal Year 2012
               Performance Summary Report for National Drug Control Activities and
               Accompanying Required Assertions (A-03-13-00354)


This report provides the results of our attestation review of the National Institutes of Health
(NIH) Performance Summary Report for National Drug Control Activities and accompanying
required assertions for the National Institute on Drug Abuse (NIDA) and the National Institute
on Alcohol Abuse and Alcoholism (NIAAA) for fiscal year (FY) 2012.

Each National Drug Control Program agency must submit to the Director of the Office of
National Drug Control Policy (ONDCP) an annual evaluation of the progress by the agency with
respect to drug control program goals using the performance measures established for that
agency (21 U.S.C. § 1703(b)(13)). The Federal statute authorizes ONDCP to “monitor
implementation of the National Drug Control Program, including – (A) conducting program and
performance audits and evaluations.” ONDCP may request “assistance from the Inspector
General of the relevant agency in such audits and evaluations” (section 1703(d)(7)). Section 7 of
the ONDCP Circular entitled Drug Control Accounting, dated May 1, 2007, provides the
reporting requirements to comply with section 1703(b)(13). Section 8 of the ONDCP Circular
requires that each report defined in section 7 must be provided to the Office of Inspector General
to express a conclusion about the reliability of each assertion made in each Performance
Summary Report for National Drug Control Activities.

As authorized by section 1703(d)(7) of the Federal statute, and in compliance with the Circular,
ONDCP requested that we perform this review. Accordingly, we reviewed the NIH report
entitled “FY 2012 Performance Summary Report for National Drug Control Activities” and
accompanying required assertions, dated November 9, 2012 (Attachment A). We conducted our
attestation review in accordance with attestation standards established by the American Institute
of Certified Public Accountants and the standards applicable to attestation engagements
Page 2 – James M. Anderson, M.D., Ph.D.


contained in Government Auditing Standards issued by the Comptroller General of the United
States. A review is substantially less in scope than an examination, the objective of which is to
express an opinion on management’s assertions contained in its report; accordingly, we do not
express such an opinion.

NATIONAL INSTITUTES OF HEALTH PERFORMANCE SUMMARY REPORT

NIH’s combined report for NIDA and NIAAA included assertions for two measures of National
Drug Control Activities. The two measures were (1) by 2013, identify and characterize at least
two human candidate genes that have been shown to influence risk for substance use disorders
and risk for psychiatric disorders using high-risk family, twin, and special population studies and
(2) by 2015, identify three key factors influencing the scaling up of research-tested interventions
across large networks of services systems such as primary care, specialty care, and community
practice. The two performance measures represented drug control activities that accounted for
$38.4 million for NIDA and $3.5 million for NIAAA.

In accordance with ONDCP requirements, NIH made the following assertions:

   •   the system for reporting performance was sufficient;

   •   the explanations for not meeting performance targets, and plans and recommendations for
       meeting targets, were reasonable;

   •   the methodology to establish performance targets was reasonable; and

   •   performance measures exist for all significant drug control activities.

We performed review procedures on the performance summary report and accompanying
required assertions. In general, we limited our review procedures to inquiries and analytical
procedures appropriate for our attestation review.

According to NIH officials, the prevention and treatment goals reported in FY 2012 are intended
to be representative of the budget for prevention and treatment. However, in our related review,
Independent Attestation Review: National Institute on Drug Abuse Assertions Concerning Drug
Control Accounting for Fiscal Year 2012 (A-03-13-00353), NIDA identified obligations totaling
approximately $1.1 billion. According to NIDA and ONDCP officials, NIDA’s entire
$1.1 billion budget related to preventing or treating drug abuse. NIDA classified its obligations
by function. For NIH’s combined report, NIDA used the first measure, accounting for
$23.5 million, to represent the $370.8 million obligated for prevention of drug abuse and used
the second measure, accounting for $14.9 million, to represent the $681.6 million obligated for
treatment of drug abuse.

The Performance Summary Report provided an evaluation of the agency’s progress with respect
to specific activities within the drug control program goals. However, the two measures only
accounted for a total of approximately 3.7 percent of NIDA’s $1.1 billion in funds obligated for
preventing or treating drug abuse. The ONDCP guidance for FY 2012, dated June 17, 2010,
Page 3 – James M. Anderson, M.D., Ph.D.


requested that NIDA revisit its performance measures and develop metrics that better reflect
more of NIDA’s drug control budget, which is all drug related.
Beginning in FY 2012, NIAAA was required to submit assertions for performance measures of
National Drug Control Activities. In our related review, Independent Attestation Review:
National Institute on Alcohol Abuse and Alcoholism Assertions Concerning Drug Control
Accounting for Fiscal Year 2012 (A-03-13-00359), NIAAA identified drug control obligations
totaling $61.7 million out of a total budget of $459 million. NIAAA classified its drug control
obligations by function. For NIH’s combined report, NIAAA used the first measure, accounting
for $0.8 million, to represent the $53.7 million obligated for prevention of drug abuse and used
the second measure, accounting for $2.7 million, to represent the $8.0 million obligated for
treatment of drug abuse.

The Performance Summary Report provided an evaluation of the agency’s progress with respect
to specific activities within the drug control program goals. However, the two measures only
accounted for a total of approximately 5.7 percent of NIAAA’s $61.7 million in funds obligated
for preventing or treating drug abuse.

Accordingly, the current performance measures for NIDA and NIAAA may not meet ONDCP’s
expectation that the report reflect the complexity and scope of NIH’s drug control activities.

OFFICE OF INSPECTOR GENERAL CONCLUSION

Based on our review, except for the fact that NIH’s performance measures may not meet
ONDCP’s expectations for reporting the scope or complexity of NIH’s national drug control
program activities, nothing came to our attention that caused us to believe that NIH’s
Performance Summary Report for FY 2012 and management’s assertions accompanying its
report were not fairly stated, in all material respects, based on the ONDCP Circular.

NATIONAL INSTITUTES OF HEALTH COMMENTS

NIH stated that it did not have any comments on the report. A copy of its comments is included
as Attachment B.

                                            ********

Although this report is an unrestricted public document, the information it contains is intended
solely for the information and use of Congress, ONDCP, and NIH. It is not intended to be, and
should not be, used by anyone other than these specified parties. If you have any questions or
comments about this report, please do not hesitate to call me, or your staff may contact Kay L.
Daly, Assistant Inspector General for Audit Services, at (202) 619-1157 or through email at
Kay.Daly@oig.hhs.gov. Please refer to report number A-03-13-00354 in all correspondence.


Attachments
ATTACHMENTS
                                                                                                               ATTACHMENT A
 ..,.,SUV1C,fs
                                                                                                               Page 1 of21
/~
t~~~                 DEPARTMENT OF HEALTH &, HUMAN SERVICES                                       Public Health Service



                                                                                                  National Institutes of Health
                                                                                                  Bethesda, Maryland 20892



                 DATE:                          November 9,2012 


                 MEMORANDUM TO:                  Director 

                                                 Office of National Drug Control Policy 


                 THROUGH:                       Norris Cochran 

                                                Deputy Assistant 'secretary, Budget, DHHS 


                 FROM:                          Director, Division of Program Coordination, 

                                                Planning, and Strategic Initiatives, NIH 


                 SUBJECT:                       Assertions Concerning Performance Summary Report 



                 In accordance with the requirements of the Office of National Drug Control Policy circular
                 "Drug Control Accounting," I make the following assertions regarding the attached Performance
                 Summary Report for National Drug Control Activities:

                 Performance Reporting System

                 I assert that NIH has a system to capture performance information accurately and that this system
                 was properly applied to generate the performance data presented in the attached report.

                 Explanations for Not Meeting Perfonnance Targets

                 I assert that the explanations offered in the attached report for failing to meet a performance
                 target are reasonable and that any recommendations concerning plans and schedules for meeting
                 future targets or for revising ()r eliminating performance targets are reasonable.

                 Methodology to Establish Performance Targets

                 I assert that the methodology used to establish performance targets presented in the attached
                 report is reasonable giVen past performance and available resources.

                 Performance Measures Exist for All Significant Drug Control Activities 


                 I assert that adequate performance measures exist for all significant drug control activities. 

                                                               ~_ ~Q_9_«,___
                                                               hmjs. M. Anderson, MD, PhD
                                                               '-­
                 Attachment
                                                                                                  ATTACHMENT A
                                                                                                  Page 2 of21




FY 2012 Perfor mance Summary Report for National Drug Control Activities

Decision Unit 1: Prevention
     Measure 1 SRO-3.S:          By 2013, identify and characterize at least 2 human candidate
genes that have been shown to influence risk for substance use disorders and risk for psychiatric
disorders using high-risk family, twin, and special population studies.

   Table 1: NIDA Annual                           for Measure I
    FY 2008          FY 2009          FY 2010            FY 2011

                                                                                         to

    gene cluster     verified         association of
    predictive of    genetic          gene variants
    treatment        markers of       in Chrna5,         treatment              variations
    response to      nicotine         Chma3, and         response and/or        associated with
    bupropion for    dependence       Chmb4,on           vulnerability to
    smoking          vulnerability    chr15q25           drug dependence
    cessation and    or outcomes      with smoking       in a minority
    revealed         of smoking       frequency.         population
    additional       cessation        Also, the first
    genetic          therapies        polygenic
    markers of       including:       complex
    addiction        CYP2A6,          genetic score
    vulnerability.   CHRNB2,          to
                     SLC6A3, and      significantly
                     NR4A2.           aid in
                                      predicting (in
                                      combination
                                      with other
                                      clinical
                                      attributes)
                                      success in
                                      smoking
                                      cessation was
                                      developed
                                      and tested.


   Table 2: NIAAA Annual                                for Measure 1
    FY 2008          FY 2009          FY 2010             FY2011               FY 2013
    Actual           Actual           Actual                                   Target
    Functional       Functional
    differences      differences      differences                              genome wide
    were             related to       were                                     association and
    identified for   alcohol          characterized       functional           functional
    the AIl8         dependence       for sequence        studies of           studies and
    allele of the    and treatment    variations in       gene variants        identify
    OPRMI gene.      were validated   genes               that are             potential
    Research was     for the Al18G    encoding            associated           genomic
    conducted on     SNPofthe         serotonin           with increased       variants
    functional       OPRMI gene.      receptors and       nsk for              associated with
    differences of                    transporters,       alcohol              risk for
    haplotypes in                     the oxidative       dependence           substance use
    theGABRA2                         stress enzyme       through              and/or
    gene.                             SOD2, and           population-          psychiatric
                                      nicotinic           based research       disorders.
                                      receptor            in European-
                                      subunits.           Americans
                                      (Target Met)        and African
                                                          Americans.



                                                                                                    1

                                                                                              ATTACHMENT A
                                                                                              Page 3 of2l




(1) Describe the measure. In doing so, provide an explanation of how the measure (1)
reflects the purpose of the program, (2) contributes to the National Drug Control Strategy,
and (3) is used by management of the program. This description should include sufficient
detail to permit non-experts to understand what is being measured and why it is relevant to
the agency's drug control activities.

NIH's growing knowledge about substance abuse and addiction (including tobacco, alcohol,
illicit, and nonmedical prescription drug use) is leading to prevention strategies that are based not
on anecdotal experience but on validated epidemiological, genetic, and neuroscience research.
NIH-supported research is building the scientific knowledge base needed to advance our goal of
developing effective tailored prevention strategies.

One key aspect of this knowledge base is inclusion of data on factors that enhance or mitigate an
underlying propensity to initiate or continue substance abuse. This includes research on the
influence of biological (e.g., genetic, gender) and environmental (e.g., socioeconomic, cultural)
factors on substance abuse and addiction at various stages of development. Information about
these contributors to substance abuse and addiction and the different ways biological factors
operate in different individuals is critical to designing more effective prevention messages.

That is why NIH's genetics research is essential to preventing addiction. A person's genetic
makeup plays an important role in his or her addiction vulnerability: approximately 40-60
percent of the predisposition to addiction can be attributed to genetics, including the impact of
the environment on how implicated genes function or are expressed. Although the gene variants
driving such increased risks are largely unknown, NIH-supported research is making strides in
this area, harnessing new advances in science and technology to identify and characterize them.
This measure, SRO-3.5, to identify and characterize at least 2 human candidate genes that have
been shown to influence risk for substance use disorders, is representative of our overall
approach to the development of targeted prevention programs-that is, identifying who is at risk
and tailoring prevention programs to be most effective for them, thereby contributing to the
National Drug Control Strategy Goal of Strengthening Efforts to Prevent Drug Use in Our
Communities (Chapter 1).

The efficacy and cost effectiveness of primary prevention programs- designed to stop substance
abuse before it starts, or prevent its escalation to abuse or addiction-can be enhanced by
targeted efforts toward populations with specific vulnerabilities (genetic or otherwise) that affect
their likelihood of taking alcohol or other drugs or becoming addicted. For example, prevention
programs designed for sensation-seeking youth are effective for them, but not for their peers who
do not demonstrate a high level of sensation seeking. High levels of sensation-seeking, and other
traits known to be risk factors for substance abuse, may be identified early using genetic
markers. Such identification would enable substance abuse prevention programs to target
messages more accurately based on individual or group vulnerability markers, ultimately
increasing their impact and cost-effectiveness. Combined with improved educational efforts to
increase an individual's awareness of his or her personal risk, this preemptive prevention
approach could empower people to make decisions that ultimately prevent substance abuse from _
starting or escalating.


                                                                                                   2

                                                                                                      ATTACHMENT A
                                                                                                      Page 4 of21




Finally, genetic information can be harnessed for improving relapse prevention by personalizing
treatments for optimal benefit. For example, individual differences seen in response to
medications for nicotine and alcohol addiction suggest that genetic predictors of treatment
response could lead to more efficacious and cost-effective relapse prevention strategies.

Indeed, the information gained from genetics research will lay the foundation for improved and
tailored prevention efforts in the future. As genetic markers of substance abuse and addiction
vulnerability (or protection) are identified, NIH will encourage researchers to use that
information to better understand how biological factors, combined with environmental ones,
contribute to abuse vulnerability, thereby enhancing its prevention portfolio. NIH would also
encourage the scientific community to usc this knowledge to develop and test targeted
prevention interventions for populations with differing vulnerabilities to improve our Nation's
intervention efforts, similar to the strategy now being used to prevent substance abuse in high
sensation-seeking youth.

(2) Provide nar r ative that examines the                   performance        with the FY
      target, as wen as            actuals.        performance target was not achieved for
FY 2012, the agency should explain why this is                 the agency has           it is
not possible to achieve                  target                 resources, the       should
         recommendations on            or eliminating the target.



The target for FY2012 was met. Multiple genome-wide and targeted association studies have
revealed significant associations between nicotine dependence and variants in the CHRNAS­
CHRNA3-CHRNB4 (CHRNAS/A31B4) gene cluster in subjects of European origin, with a
recent study also demonstrating such associations among Korean smokers. Recent NIDA-funded
studies have further characterized this association, narrowing it to a specific region that is the
most likely candidate to alter risk for heavy smoking. A recent meta-analysis of 27 datasets,
including those of European, Asian, and African American ancestry (n = 32,587), showed that
only rs16969968 was associated with smoking in these three populations and was a marker of a
larger "high risk" haplotype (a set of alleles of linked genes). Additional studies have
demonstrated novel associations between other gene variants in this cluster with various
smoking-related phenotypes, such as nicotine dependence symptoms, nicotine tolerance,
smoking initiation, and comorbid conditions (e.g., regular drinking and depression) I , these
vulnerabilities being heightened in early onset smokers. 2 Another study demonstrated that
carriers of the high-risk haplotype were three times more likely to respond to smoking cessation


I Broms U, Wedenoja J, Largeau MR, Korhonen T, Pitkaniemi J, Keskitalo-Vuokko K, HappaHi A, Heikkila KH,
Heikkila K, Ripatti S, Sarin AP, Salminen 0, Paunio T, Pergadia ML, Madden PA, Kaprio J, Loukola A. Analysis
of detailed phenotype profiles reveals CHRNA5-CHRNA3-CHRNB4 gene cluster association with several nicotine
dependence traits. Nicotine Tob Res. 2012 Jun; 14(6):720-33. Epub 2012 Jan 12.

2Hartz SM et al. Increased Genetic Vulnerability to Smoking at CHRNA5 in Early-Onset Smokers. Arch Gen
Psychiatry. 20 12 Aug; 69(8):854-861.


                                                                                                               3
                                                                                                           ATTACHMENT A
                                                                                                           Page 5 of21




                                                                                                 3
medications, making this haplotype of interest for personalized cessation therapies. An editorial
on this report adds that the chances of successfully quitting increase two-fold in patients with the
high-risk variant if they are treated with nicotine replacement, bupropion, or a combination. 4

Although these associations and related predictive treatment models show promise, biochemical
analyses and further characterization are needed to understand the mechanism of action. To
explore the effect of the rs 16969968 SNp 5 , different variants of the nicotinic a5 receptor subunit
were examined in a cell line containing the nicotinic receptor a3a4*complex. One of these
variants had a decreased response to nicotinic agonists (chemicals that act on nicotinic receptors)
under specific conditions. Such a response points to additional research that must be done to
characterize the function of this variant. 6 In other work, virus-induced expression of the a5
subunit risk allele in the medial habenula-interpenduncular nucleus, a brain region associated
with nicotine withdrawal, resulted in reduced aversion to nicotine and, consequently, greater
consumption of the drug. 7

Another genetic variant, A 118G in the human mu opioid receptor gene (MOR), has been
associated with opioid, alcohol, and other drug addictions and with the need for higher morphine
doses to achieve adequate analgesia. Recent work using animal- and human-cultured cell lines
found that one form of this gene reduced N-linked glycosylation more than the other, which may
account for the reduction of the MOR protein in certain brain regions and thus the associations
observed. 8, 9 Other work has demonstrated differences between this genetic variants' effects on
dopamine release after tobacco smoking, known to be associated with the pleasure a smoker
      10
feels. These studies are consistent with literature on the association of MOR All G with drug


3 Chen LS et al. Interplay of Genetic Risk Factors (CHRNA5-CHRNA3-CHRNB4) and Cessation Treatments in
Smoking Cessation Success. Am J Psychiatry. 2012 Jul; 169(7):735-742.

4Lotrich FE. The Emerging Potential of Pharmacogeneties in Psychiatry. Am J Psychiatry. 2012 Jul; 169(7):681­
683.

5 Single Nucleotide Polymorphisms (SNPs): DNA sequence variations that occur when a single nucleotide (A, T, C,
or G) in the genome sequence is altered.

 Tammimaki A, Herder P, Li P, Esch C, Laughlin JR, Akk G, Stitzel JA Impact of human D398N single
Ii
nucleotide polymorphism on intracellular calcium response mediated by a3a4a5 nicotinic acetylcholine receptors.
Neuropharmacology. 2012; 63: 1002-1011.

7Fowler CD and Kenny PJ. Habenular Signaling in Nicotine Reinforcement. Neuropsychopharmacology Reviews.
2012; 37:306-307.

8 Huang P, Chen C, Mague SD, B1endy JA, Liu-Chen L-Y. A common single nucleotide polymorphism AI18G of
the mu opioid receptor alters N-glycolsylation and protein stability. Biochem J. 2012; 441:379-386.

9Wang YJ, Huang P, Ung A, B1endy JA, Liu-Chen L-Y. Reduced Expression of the mu opioid receptor in some,
but not all, brain regions in mice with Oprml Al12G. Neuroscience. 2012; 205: 178-184.

10 Domino EF, Evans CL, Ni L, Guthrie SK, Koeppe RA, Zubieta J-K. Tobacco smoking produces greater striatal
dopamine release in G-allele carriers with mu opioid receptor AIl8G polymorphism. Progress in Neuro­
Psychopharmacology & Biological Psychiatry. 2012; 38:236-240.


                                                                                                                  4

                                                                                            ATTACHMENT A
                                                                                            Page 6 of21




abuse and stress, yet continued research is needed to explore the implications of these findings
and to link these mechanisms to drug abusing behaviors.



The target for FY2012 was met. Studies with high risk family, twin, and special populations
continue to be instrumental in identifying the genetic determinants of alcoholism and other
disorders. NIH researchers conducted genetic association studies within these populations and
replicated a previously identified genetic association with alcoholism. In addition, NIH
researchers conducted studies of signaling pathways in animals that likely contribute to the risk
for alcohol dependence and which may reveal additional genomic variants in humans.

For more than two decades NIAAA has supported the Collaborative Studies on Genetics of
Alcoholism (COGA), a large-scale national, multi-ethnic, high-risk family study, with the goal of
identifying specific genes that can influence a person's likelihood of developing alcoholism. This
has resulted in a very rich dataset and repository of phenotypic and neurophysiological data, cell
lines, and DNA for cunent and future studies within COGA. A cunent focus of COGA is the
study of adolescents and young adults from these families, to examine genetic effects across
development and to understand the environmental factors that modulate genetic risk in this
critical age range. Studies on youth from families with a high density of alcohol dependence will
enable researchers to examine how genetic variants identified in one generation influence risk in
the next generation and how this risk is influenced by various environmental factors. The
research will also further explore if exposure to alcohol during key developmental stages causes
epigenetic modifications, defined as changes to DNA structure without changes to the DNA
sequence that alter gene expression, which may affect the long-term risk for alcoholism and its
sequelae. Analyses will also examine the potential association between these epigenetic changes
and patterns of alcohol use initiation.

COGA researchers recently replicated and extended the results of previous association studies in
East Asian populations to populations of European and African ancestry. Numerous gene
variants have been associated with risk for alcohol dependence in different racial and ethnic
populations using genome wide association studies (GWAS) and other approaches. Although
many variants identified to date have been associated with increased risk for alcohol dependence
and problem drinking, other variants have been associated with protection against alcohol use
disorders. A variant in the alcohol dehydrogenase IB gene, ADHIB-Arg48His, is common in
East Asian populations, increases alcohol metabolism leading to elevated acetaldehyde levels
and reduces risk for alcohol dependence. Because this variant is uncommon in populations of
European or African descent, researchers combined datasets from three large case-control studies
that focused on either alcohol dependence, nicotine dependence, or cocaine dependence in ordcr
to assess potential protective effects of ADHIB-Arg48His in these populations. Samples from
more than 5,600 individuals with and without alcohol dependence were analyzed. The results
indicated that ADHI B-Arg48His was significantly associated with reduced risk of alcohol
dependence and associated with reduced alcohol consumption in both European Americans and
African Americans. In addition to the adult sample described above, ADHIB-Arg48His was
analyzed in an independent sample of 2,039 European American adolescents and adults age 12­



                                                                                                5

                                                                                                          ATTACHMENT A
                                                                                                          Page 7 of2l




25, and was also found to be associated with reduced risk for developing future alcohol
dependence in this group. 11

A related project is integrating the study of twin populations with molecular and developrnental
approaches to advance our understanding of how genetic and environmental influences on
alcohol use and related disorders interact across development. Twin studies are especially useful
for characterizing the nature of genetic influences on alcohol use and related disorders and the
findings will be used to identify gene associations in other family samples. Community-based
samples of individuals studied longitudinally will then enable analysis of how risks associated
with specific genes identified in the family samples may change across development and in
conjunction with specific environmental factors.

Animal models are valuable for testing the effects and functions of genomic variants identified in
human studies. For example, studies suggest that specific genes and their respective signaling
pathways may prevent or delay the development of alcohol dependence by counteracting the
adverse actions of alcohol and therefore malfunction of such pathways may increase an
individual's susceptibility to developing alcohol dependence. For example, research has
demonstrated that the bone derived neurotrophic factor (BDNF) pathway in mice has a protective
effect against alcohol consumption and a variant in the human BDNF gene both impairs BDNF
function and is linked to an increased risk for addiction and other psychiatric disorders. NIAAA
supported researchers are currently testing this variant in a mouse model of drinking to determine
if it disrupts the normally occurring protective effects of BDNF against the adverse actions of
alcohol and thereby confers vulnerability to problem drinking. Other NIAAA-supported
researchers are focused on elucidating the roles of neuropeoptide Y (NPY) and corticotrophin
releasing factor (CFR) signaling in binge-like ethanol drinking in animals. Interestingly, recent
studies have shown that neither of these pathways alters normal ethanol intake in non-alcohol
dependent animals but both signaling pathways modulate excessive binge-like consumption in
rodents. 12. 13 Studies underway will determine the effect of chronic heavy alcohol exposure on
these pathways and how that may influence the transition from binge use to alcohol dependence.

11 Bierut LJ, Goate AM, Breslau N, Johnson EO, Bertelsen S, Fox L, Agrawal A, Bucholz KK, Grucza R, 

Hesselbrock V, Kramer J, Kuperman S, Nurnberger J, Porjesz B, Saccone NL, Schuckit M, Tischfield J, Wang JC, 

Foroud T, Rice JP, Edenberg HJ. ADHIB is associated with alcohol dependence and alcohol consumption in 

populations of European and African ancestry. Mol Psychiatry. 2012 Apr;17(4):445-50. doi: 1O.1038/mp.2011.l24. 

Epub 2011 Oct 4. 

PMID: 21968928 



12 Sparrow AM, Lowery-Gionta EG, Pleil KE, Li c, Sprow GM, Cox BR, Rinker JA, Jijon AM, Pena J, Navarro M, 

Kash TL, and Thiele TE. Central Neuropeoptide Y Modulates Binge-Like Ethanol Drinking in C57BLl6J Mice via 

Yl and Y2 Receptors. Neuropsychopharmacology (2012) 1409-1421. 

PMID: 22218088 



13 Lowery-Gionta EG, Navarro M, Li C, Pleil KE, Rinker JA, Cox BR, Sprow GM, Kash TL and Thiele TE.
Corticotropin Releasing Factor Signaling in the Central Amygdala is Recruited during Binge-Like Ethanol
Consumption in C57BLl6J Mice. The Journal of Neuroscience (2012) 32(10): 3405-3413 doi
10.1523/JNEUROSCI.6256-11.20 12
PMID: 22399763


                                                                                                              6
                                                                                          ATTACHMENT A
                                                                                          Page 8 of2l




The findings could potentially lead to the identification of NPY and CFR genomic variants that
influence binge-like drinking behavior providing targets for medications development as well as
identifying individuals who might benefit from treatment with such medications.

(3) The agency should describe the performance target for FY 2013 and how the agency
plans to meet this target. If the target in FY 2012 was not achieved, this explanation should
detail how the agency plans to overcome prior year challenges to meet targets in FY 2013.



The FY2013 target is to continue to characterize functional genetic variations associated with
substance abuse, building on the relationship between tobacco dependence and the nicotinic
subunit receptor cluster on chromosome 15 (CHRNA5/A3/B4) and other genetic variations
associated with addiction to other substances, such as A118G in MOR. NIDA will continue to
support deep sequencing and functional analyses to understand how these genetic variants
contribute to various addiction phenotypes.

NlAAA

The performance target for FY 2013 is to complete genome wide association and functional
studies and identify potential genomic variants associated with risk for substance use and/or
psychiatric disorders. As described above, the ongoing Collaborative Studies on Genetics of
Alcoholism (COGA) has a major focus on adolescents and young adults and will useGWAS and
other genomic data to identify genes and/or genomic variants that are associated with features of
adolescent and young adult drinking behavior and other alcohol-related outcomes. In addition,
studies described above will help elucidate how epigenetic changes resulting from alcohol
exposure or other environmental factors modulate the expression of specific genes thereby
reinforcing heavy drinking and contributing to the development of alcohol dependence.

(4) The agency should describe the procedures used to ensure performance data for this
measure are accurate, complete, and unbiased in presentation and substance. The agency
should also describe the methodology used to establish targets and actuals, as well as the
data source(s) used to collect information.

Data Accuracy, Completeness and Unbiased Presentation

The research field is guided by standard scientific methodologies,policies, and protocols. Any
variation from these proven methodologies generates criticism that negates findings. The
scientific process also has several benchmarks within it to ensure scientific integrity. For
instance, research designs, such as qualitative, quantitative, and mixed methods, have each been
tested, with evidence-based strategies established to guide the implementation of all scientific
research studies. In these processes, data collection, security, management, and structures are
clearly defined to ensure optimum analyses.

Data analyses are guided by statistical methodologies, a mathematical science used to test.
assumptions. In addition, NIH has incorporated standardized policies and procedures for making


                                                                                               7

                                                                                                                                                                                                    ATTACHMENT A
                                                                                                                                                                                                    Page 9 of2l




funding announcements, assessing meritorious science, monitoring progress of grantees and
scientists in achieving the expected outcomes, and assessing performance at the project's
conclusion. Researchers are also expected to publish findings in peer-reviewed journals, which
offer another layer of assessment and validation of the findings. In addition, all studies involving
human subjects must receive Institutional Review Board (IRB) clearance, yet another form of
assessment that ensures the relevance of the study and the safety of the subjects. NIH's research
activities implement and practice all scientifically relevant procedures to ensure data quality and
to substantiate findings.

In implementing scientific research, NIH uses established tools to develop and oversee programs
and improve their performance, proactively monitoring grants, contracts, and cooperative
agreements and assessing their performance. The following briefly describes the NIH scientific
process, which has been assessed by outside entities and is regarded as premier.

Assessment to fund meritorious science (peer review ). NIH uses state-of-the-art assessment to
determine scientific merit and make funding decisions based on the best science. In general,
project plans presented in competing grant applications and contract proposals are subject to
three levels of review focused on the strength and innovation of the proposed research, the
qualifications of the investigator(s), and the adequacy of the applicant's resources:

        OIl     The first level of review, called peer review, ensures that the most meritorious science, as
                determined by the scientific field's experts, is identified for funding. The NIH has over
                11,000 external experts participating in peer review panels, each of whom is nationally
                recognized for his or her area of expertise. The applications are systematically reviewed
                and scored to inform funding decisions. The NIH is one of the few Federal agencies with
                a legislative requirement for peer review.
        III     The second level of review is the Institute's National Advisory Council, which is
                comprised of eminent scientists along with members of the general public. The Council
                serves as a useful resource to keep each Institute abreast of emerging research needs and
                opportunities, and to advise the Institute on the overall merit and priority of grant
                applications in advancing the research. All members of Council are appointed by the
                HHS Secretary.
        !II     The third level of review is by the Institute Director, with input from Institute staff who
                have relevant expertise. The Director makes the final decision on whether an application
                will receive funding.

These layers of expert review assessing scientific methodologies and relevance to the .field
enable funding of the most promising research to advance the field. Consequently, funding
decisions made at the agency level are conducted in a consistent, merit-based fashion, guided by
scientific methodologies and relevance.

Performance monitoring of !:,--rants and contracts. Once an award is made, additional NIH
policies and guidelines are implemented to ensure oversight of the proposed project aims' and
program                                              goals.                                  The                              NIH                                     Grants              Policy        Statement
\C_=~<c~,,,,,,,, ""',",-::::;~;.,,,,,, , ,;;;,,,,;',,,,,,,,;;~;,;,,,,,,,_,,;,,, ;; ;,;"~,,,,o,.;,,~ .',,,,,,,;,;;;""~;,"~,,,;=, ,,,, ;",,::;';,,"" ,.;,;;,,,,,~.:,,;,;::::,,,, provides the standardized protocols
for monitoring performance-based grants and contracts. Although there are many procedures, a

                                                                                                                                                                                                               8
                                                                                            ATTACHMENT
                                                                                            Page 10 of2l




Jew significant Items include the timely submission of progress and final reports. These are
assessed by NIH project officers and grants management staff to determine adherence to the
approved scientific research plan and to appropriate cost principles and legislative compliance.
Project officers may work closely with principle investigators to facilitate adherence, address
barriers, and ensure quality programmatic achievements.

As a standard performance-based practice, the approved scientific aims and objectives formulate
the terms and conditions of each grant award and become the focus of scientific monitoring. The
NIH Grants Policy Statement, referenced as a term of every award, states the specific
administrative requirements for project monitoring and enforcement actions when a grantee fails
to comply with the terms and conditions of the award. NIH staff monitor scientific progress
against the approved aims and scope of the project, as well as administrative and fiscal
compliance through review of periodic progress reports, publications, correspondence,
conference calls, site visits, expenditure data, audit reports (both annual institutional financial
reports and project specific reports), and conference proceedings. When a grantee fails to
comply with the terms and conditions of an award, enforcement actions are applied. These may
include modification to the terms of award, suspension, withholding support, and termination . .

A further checkpoint for programmatic assessment occurs when the applicant requests renewal
support of continuation research. A peer review group again assesses the merits of future
research plans in light of the progress made during the previous project period, and any problems
in grantee performance are addressed and resolved prior to further funding. This process further
demonstrates use of assessments to improve performance.

Review of manuscripts. Ultimately, the outcomes of any scientific research are judged based on
published results in a peer-reviewed journal. The peer-review publication process is another
point in which the quality and innovation of the science undergoes a rigorous evaluation. For
most scientific journals, submitted manuscripts are assigned to a staff editor with knowledge of
the field discussed in the manuscript. The editor or an editorial board will determine whether the
manuscript is of sufficient quality to disseminate for external review and whether it would be of
interest to their readership. Research papers that are selected for in-depth review are evaluated
by at least two outside referees with knowledge in the relevant field. Papers generally cannot be
resubmitted over a disagreement on novelty, interest, or relative merit. If a paper is rejected on
the basis of serious reviewer error, the journal may consider a resubmission.

Additional controls specific for genetics projects. For all genetics projects (i.e., both contracts
and grants), a three-tier system ensures data accuracy. This system is based on sound, proven
scientific methodology internally governed by the larger scientific research community (as
described above). First, gene expression levels are validated using highly quantitative methods to
measure ribonucleic acid (RNA) levels. Second, each study builds in a replication design using
subsets of the study population or, sometimes, different study populations. Third, the
information gleaned from these studies is compared against previous animal data or, if not
available, replicated and validated in newly generated animal models more suited to evaluate the
implications of the genetic findings.




                                                                                                 9

                                                                                                         ATTACHMENT A
                                                                                                         Page 11 of2l




Every effort is made to acquire complete data sets; however, several factors conspire against
doing so. These factors are either intrinsic to the type of data being collected (inability to collect
from all drug abusers, all ethnic minorities, every developmental stage, every comorbid
association, etc.) or linked to the incompleteness of genetic information databases (considerable
gaps in SNP14 collections, many genes yet unidentified or without known function, etc.). Some
level of data incompleteness mires all human genomic programs in which population sampling,
limited by cost considerations, must be used. These obstacles, however, do not necessarily
jeopardize data quality, since many powerful post-hoc standard protocols are available and being
deployed to clean the data sets and ensure accuracy and replicability.

Methodology Used to Establish TargetslActuals

The targets are established based on the state of the science in a particular field and knowledge
of the scientific process by which advances are made. For example, NIDA relies on the latest
findings of biochemical and other (e.g., neuroimaging) experimental evidence suggesting that a
particular gene might be involved in the addiction process and on whole genome association
scans, an unbiased strategy for identifying genetic variations within large experimental
populations, to identify genes that may confer substance abuse vulnerability. Genes putatively
associated with addiction are subjected to further characterization and validation, typically
through animal models. The targets are established based on where the field stands in this
process and on the next logical scientific step for moving the field forward.

Data Sources

As described above, each grantee provides an annual progress report that outlines past-year
project accomplishments, including information on patients recruited, providers trained, patents
filed, manuscripts published, and other supporting documentation, depending on the goals of the
study. This information allows NIH to evaluate progress achieved or to make course corrections
as needed.

Decision Unit

  Measure 1: SRO-S.7 By 2015, identify three (3) key factors influencing the scaling up of
research-tested interventions across large networks of services systems such as primary care,
specialty care and community practice.




14 Single Nucleotide Polymorphisms (SNPs): DNA sequence variations that occur when a single nucleotide (A, T, C,

or G) in the genome sequence is altered.

                                                                                                             10 

              ATTACHMENT A
              Page 12 of21




evidence
based
programs
(EBPs) and
which E13Ps
they used.




                11 

                                                                                              ATTACHMENT A
                                                                                              Page 13 of21




   Table 2: NIAAA Annual
    FY 2008          FY 2009          FY 2010
    Actual           Actual           Actual
                     NIAAA            Products
    that the         supported        promote           disseminated        underage
    primary care     studies on       assessing and     new                 drinking
    and mental       strategies for   managing          multimedia          screening guide
    health care      the              problem           products that       based on
    systems          management       drinking in       promote             feedback from
    provide an       of alcohol use   different media   implementation      primary care
    existing         disorders in     formats were      of screening        providers and
    structure        primary care     refined and/or    and brief           develop
    through          and other        pursued.          intervention in     strategies to
    which            health care                        primary care
    effective        settings.                          and educate the
    treatment                                           general public
    could be                                            about the
    made                                                health effects
    available to                                        of alcohol.
    large numbers                                       NIAAAaiso
    of patients                                         continued to
    with alcohol                                        support
    dependence,                                         research on the
    NIAAA                                               implementation
    continues to                                        of screening
    promote and                                         and brief
    disseminate                                         intervention in
    the updated                                         primary care.
    Clinician's
    Guide:
    Helping
    Patients Who
    Drink Too
    Much. In
    2008, NIAAA
    launched a
    new, online,
    interactive
    companion
    video training
    program on
    Medscape
    which offers
    continuing
    education
    credits to




(1) Describe the measure. In doing so, provide an explanation of how the mea.sure (1)
reflects the purpose of the program, (2) contributes to the National Drug Control Strategy,
and (3) is used by management of the program. This description should include sufficient
detail to permit non-experts to understand what is being measured and why it is relevant to
the agency's drug control activities.

Decades of research have led to today's improved understanding of addiction. Research has
shown addiction to be a chronic, relapsing brain disease characterized by compulsive behaviors
and caused by a tangle of genetic, social, environmental, and developmental factors. NIH
supports multidisciplinary research addressing the myriad factors that can influence the
development and progression of substance abuse and addiction, with the goal of informing and.
improving treatment strategies to facilitate abstinence and prevent relapse.
                                                                                            ATTACHMENT A
                                                                                            Page 14 of2l




NIH recognizes that despite major strides in treatment research, only limited improvements have
occurred in non-research settings. An unacceptable gap separates scientific discoveries from their
integration into community and other practice settings. A scientific approach must be brought to
bear on effectively testing and disseminating research-based treatments and understanding how
health services systems and settings influence treatment implementation. Ultimately, NIH
strives to make research-based treatments user friendly, cost effective, and available to a broad
range of practitioners and their patients. NIDA and NIAAA highlight two approaches the NIH is
taking to address the gap in implementing interventions in non-research settings (i.e., improving
treatment integration in criminal justice and primary care settings).

Criminal Justice Setting

It is estimated that 70-85 percent of State inmates need drug abuse treatment, yet only about 13
percent receive it while incarcerated. About 600,000 inmates per year are released back into the
community, often without having received drug abuse treatment in prison or linkage to
community-based drug treatment for continuing care. Left untreated, drug-addicted offenders
often relapse to drug use and return to criminal behavior. This situation jeopardizes public health
and public safety and leads to re-arrest and re-incarceration, which exacerbates already high
burdens on the criminal justice system. To better address public health and safety concerns, a
treatment model within the criminal justice system is needed that fits the chronic nature of
addictive disorders and ensures a continuity of treatment in line with the individual's needs.
Such an integrated model should be designed not only to incorporate the best criminal justice
practices and therapeutic services but also to use the best organizational practices to deliver
them.

NIDA's treatment portfolio not only encompasses the development and testing of medications
and behavioral therapies for drug addiction but ensures that effective treatment interventions are
used by the communities that need them. In 2002 NIDA established a multi site research
cooperative program, the national Criminal Justice Drug Abuse Treatment Studies (CJ-DATS).
The CJ-DATS program aligns with NIDA's multi-pronged approach to rapidly move more
promising science-based addiction treatments into community settings, to improve existing drug
treatment for criminal justice populations and to inform the development of integrated treatment
models. Since its inception, CJ-DATS has contributed to a significant body of research to
describe existing treatment practices in the criminal justice system and to develop and test the
effectiveness of specific interventions. Now in its second phase, CJ-DATS research is focused on
the effective implementation and sustainability of improvements in the quality of drug abuse
treatment for criminal justice populations.

SRO-8.7 is focused on testing implementation of and quality improvement strategies for
effective treatment interventions within the criminal justice system. SRO-8.7 represents NIDA's
long-term strategy for improving drug abuse treatment nationwide, thereby contributing to the
National Drug Control Strategy's Goals of: Integrating Treatment for Substance Use
Disorders into Healthcare and Expanding Support for Recovery (Chapter 3) by supporting
Seek, Test, and Treat HIV in the Criminal Justice System; and Breaking the Cycle of Drug



                                                                                                13 

                                                                                            ATTACHMENT A
                                                                                            Page 15 of21




Use, Crime, Delinquency, and Incarceration (Chapter 4) by supporting Innovative Criminal
Justice Research Programs.

Primary Care Settings

NIH has a strong focus on preventing and reducing underage drinking, recognizing the pervasive
use of alcohol among young people and the association between early initiation of alcohol use
and future alcohol problems. A major focus is to integrate screening and brief intervention for
youth into primary care. Research shows that while many youth are willing to discuss alcohol
use with their doctors when assured of confidentiality, too few clinicians follow professional
guidelines to screen their young patients. Clinicians often cite insufficient time, unfamiliarity
with screening tools, the need to triage competing problems, and uncertainty about how to
manage a positive screen, as barriers to alcohol screening. They therefore miss the opportunity
to express concern about early alcohol use, allow their young patients to ask knowledgeable
adults about alcohol, and intervene before or after drinking starts, as well as before or after
problems develop. In 2011, NIAAA released an alcohol screening guide for health care providers
to identify alcohol use and alcohol use disorders in children and adolescents, and to identify risk
for alcohol use, especially in younger children. The tools, including a brief two-question
screener, tips, and resources, are designed to help surmount common obstacles to youth alcohol
screening in primary care.

SRO-8.7 represents NIAAA's long-term strategy for improving alcohol abuse treatment
nationwide, thereby contributing to the National Drug Control Strategy's Goal of: Seek Early
Intervention Opportunities in health Care (Chapter 2) by Evaluating Screening for Substance
Use in Healthcare Settings and Enhancing Healthcare Providers' Skills in Screening and
BriefIntervention.

(2) Pr ovide narrative      examines the             actual performance results with the FY
2012 target, as well as prior year actuals.     the performance target was not achieved for
FY 2012, the agency should explain why          is the case. If the agency has concluded it is
not           to achieve     established target        available resources, the agency should
include recommendations on revising or eliminating the target.



The FY 2012 target was met. The CJ-DATS research protocols described in the FY 2010 target
collected data in two studies in FY 2012.

The MATICCE (Medication-Assisted Treatment Implementation in Community Correctional
Environments) protocol is testing implementation approaches aimed at improving service
coordination between community correctional agencies and local treatment agencies. Goals are
to increase the number of persons in corrections who are linked with medication-assisted
treatment (MAT) and to improve community corrections agents' knowledge and perceptions
about MAT and their intent to refer appropriate individuals to community-based MAT services.
The study randomizes correctional agencies to two implementation strategies: (1) a KPI
(Knowledge, Perception, and Information) intervention where correctional staff will be trained


                                                                                                14
                                                                                              ATTACHMENT A
                                                                                              Page 16 of21




on use of medications in addiction treatment, including the effectiveness of MAT for reducing
drug use and crime, for overcoming negative perceptions about MAT, and for providing
information about local resources providing MAT; or (2) a KPI+Organizational Linkage (OL)
intervention, which engages key representatives from the corrections and treatment agencies in a
strategic planning process designed to facilitate interorganizational referral relationships, thereby
redistributing offenders from community corrections into community-based treatment.

MATICCE is a collaborative study involving nine academic research centers (RCs), each with
two community corrections partner agencies. Within each research center, one agency was
randomly assigned to one study condition/implementation strategy. The MATICCE study
involves:
    ell  a pilot data collection phase,
    IiIl IRB review and approval,
    61   baseline data collection (surveys and site records),
    ill  training tor the KPI intervention,
    .. randomization to (1) KPI or (2) KPI+ OL condition; and
    • for those assigned to KPI+OL,
         o establishing a Pharmacotherapy Exchange Council (PEe),
         o performing linkage assessments,
         o creating a strategic implementation plan to improve linkages,
         o implementing the OL intervention, and
         o collecting data on progress and outcomes.

Progress in tL~LcjjJJg the MATICCE S(.1:!Jll:. In FY2012, all nine research centers completed the
active implementation protocol-that is, the strategic planning intervention with the PEC. All
sites completed the KPI training and collected follow-up data from participants 3 months later.
In each experimental site, the PEC has completed all assigned protocol activities: an
assessment/walkthrough process to identify agency needs, a collaborative strategic planning
process to identify key goals for improving offender referrals, the implementation of activities
needed to achieve those goals, the production of written summary reports and sustainability
plans, and the disengagement from the research teams as planned. All research centers
implemented the same study protocol and associated measures.

The research teams are currently engaged in end-of-intervention and follow-up data collection at
all sites. This ongoing data collection includes records abstraction from offender case reports at
the end of the intervention and at 6 months post-intervention to determine the extent to which
offenders are referred to treatment and gains are sustained over time. Both will be compared to
referral rates documented at baseline (collected in FY 2011). Data collection also includes a
repeated assessment of staff opinions about MAT, to determine lasting impacts of the KPI
training at 12 months post-training~ measures of interorganizational relationships, to assess
improvements in referral relationships over time from the collaborative strategic planning
process; and monthly counts of the number of treatment referrals made by parole/probation
officers in each study site.




                                                                                                  15 

                                                                                           ATTACHMENT A
                                                                                           Page 17 of2l




While the final data collection activities continue, RCs are actively engaged in cleaning and
analyzing baseline data. FY 2013 is entirely devoted to final data collection, analysis, and
reporting of study findings.

The other protocol, HIV-STIC (HIV Services and Treatment Implementation in Corrections), is
testing an organizational intervention strategy for more effectively implementing improvements
in HIV services for preventing, detecting, and treating HIV in offenders under correctional
supervision. The study randomized correctional facilities to one of two conditions: (1) a control
arm that receives basic training on the fundamentals of HIV infection, prevention, testing, and
treatment, as well as information about the HIV services continuum and its implications or (2) an
experimental arm that will implement a process improvement approach to guide a Local Change
Team (LCT) through a structured series of steps to improve HIV services. Such models have
been found to improve health services implementation in other settings, but have not been tested
in correctional settings or with HIV services.

HIV-STIC is a collaborative study involving 9 academic research centers (RCs) and 30
community corrections partner agencies (3 research centers have partnered with 2 community
corrections agencies, and 6 research centers have partnered with 4 community corrections
agencies). Within each research center, community correction agencies are randomly assigned to
one study condition/implementation strategy. The HIV-STIC study involves:
    III identifying study sites (participating prisons or jails),
    ill surveying the facility to determine HIV practices currently used,
    ill completing an orientation meeting for executive sponsors (who will determine which
         partes) of the HIV continuum to focus on),
    III completing IRB approvals,
    ill collecting baseline data (surveys and records),
    • conducting baseline HIV training and collecting data associated with it,
    ill randomizing sites to (1) the baseline training only or (2) baseline training + LCT process
         improvement,
    ill training LCTs on process improvement procedures,
    ill implementing the LCT intervention, and 

    III collecting process and outcome data over the course of the implementation intervention. 


A 9-month follow-up is planned to measure implementation and sustainability outcomes.

Progress in fielding the HIV-STIC studv. In FY 2012, all nine research centers began the HIV
training and Local Change Team Intervention. In FY 2012, all sites (experimental and control)
at all RCs completed baseline data collection, baseline HIV trainings, and site randomization.
The experimental sites (those sites implementing HIV training + LCT) at all nine RCs have
completed their LCT process improvement training.            Three RCs have completed the
implementation phase of the intervention. The 9-month LCT implementation phase is in
progress at five RCs. One RC is in the planning phase of the intervention. While the final data
collection activities continue, all RCs are actively engaged in cleaning and analyzing baseline
data. FY 2013 is devoted entirely to final data collection, analysis, and reporting of study
findings.


                                                                                               16
                                                                                            ATTACHMENT A
                                                                                            Page 18 of21




NIAAA

The target for FY 2012 was met. NIAAA developed strategies for dissemination of the underage
drinking screening guide and began dissemination for use in primary care settings. In
collaboration with the American Academy of Pediatrics, the guide was distributed to the
organization's entire membership; a total of 168,494 guides were requested from NIAAA in FY
2012. To encourage use of the guide, NIAAA also began discussions with Medscape about
developing an online course to provide continuing medical education (CME) credits for
physicians, nurses, and physician assistants. In addition, NIAAA issued a request for research
applications to evaluate the guide in practice and funded four of these projects in FY 2012: one
in a network of emergency departments, one in a juvenile justice setting, one in primary care,
and one with youth who have a chronic condition (e.g. asthma, diabetes). These studies will
determine appropriate settings for effective use of the guide and inform dissemination strategies
in these settings.

(3) 	      agency should describe      performance
        to meet this       If     target in FY     was not
        how the agency        to overcome prior     challenges to meet



FY 2013 target is to continue field research on the two studies described above so as to test
implementation strategies for incorporating research-supported interventions in the criminal
justice system. To meet this target, NIDA will continue to support CJ-DATS and its partners as
they undertake the next steps towards evaluating and analyzing the data from these protocols
designed to facilitate quality improvement strategies for medication-assisted treatment and for
HIV prevention, testing, and linkage to care.

NIAAA

To meet the FY 2013 target to refine the underage drinking screening guide based on feedback
from primary care providers and develop strategies to encourage widespread adoption of the
guide, NIAAA will continue to support studies to evaluate the guide in clinical settings. The
brief, two-question screener will be assessed in youth ages 9 to 18: both as a predictor of alcohol
risk, alcohol use, and alcohol problems including alcohol use disorders; and as an initial screen
for other behavioral health problems (for example, other drug use, smoking, or conduct
disorder). These studies will provide feedback to NIAAA that will facilitate refinement of the
guide and help identify settings where use of the guide is appropriate and effective thereby
informing           strategies        for         more          widespread          dissemination.

(4) The agency should describe the procedures used to ensure performance data for this
measure are accurate, complete, and unbiased in presentation and substance. The agency
should also describe the methodology used to establish targets and actuals, as well as the
data source(s) used to collect information.




                                                                                                17 

                                                                                               ATTACHMENT A
                                                                                               Page 19 of21




Data Accuracy, {'ompietenec)'s, and Unbiased Presentation

As described above, the research field (including services research) is guided by standard
scientific methodologies, policies, and protocols to ensure the validity of its research results. NIH
uses established tools for program development; for actively monitoring grants, contracts, and
cooperative agreements; and for assessing performance of grants and contracts in order to
oversee the program and improve performance. These tools have been described in response to
question 4 above.

Additional contro/Lli]Jecitic lor CJ-DATS. CJ-DATS's pnonty is to study implementation
approaches in criminal justice settings to facilitate the translation of evidence-based practices
into routine care. Since the priority is collection of scientific data, CJ-DATS follows scientific
guidelines and procedures in collecting, verifying, cleaning, analyzing, and reporting data.
These procedures ensure that the data meet scientific standards and can reliably and effectively
be used to advance NIDA's goal of improving substance abuse treatment. Towards this end, CJ­
DATS requires a protocol that describes each study in sufficient detail to dictate what will be
done: the major research questions and hypotheses to be tested, a sequence and timeline for
planning and implementing the study, a list of instruments to be used, target population
characteristics, and proposed sample size.

A thorough process is used to develop CJ-DATS protocols to ensure their capacity to provide
valid, reliable, and useful data. Briefly, research concepts are proposed by CJ-DATS Research
Centers and submitted to the Research Management (RM) Subcommittee of the Steering
Committee (SC) for a critical review of the concept, focusing on scientific and technical issues
(e.g., research design, measurement issues, analytic strategies, participation of criminal justice
and drug treatment partners, study budget). The RM then makes a recommendation to the SC for
approval or for other action related to the final concept. The SC evaluates whether the proposed
protocol:

    tI    Is within the scope of the research framework established by NIDA;
    41    Considers systems-level factors in the criminal justice system and, as appropriate, in the
          drug abuse treatment system;
    III   Furthers improvement of the quality of treatment services offered to offenders with
          substance use disorders during incarceration, during transition from incarceration to
          community reentry, and after reentering the community;
    41    Responds to stakeholder needs and priorities, including those of criminal justice
          administrators and staff, drug abuse, mental health, and primary health care providers,
          and policy makers;
    III   Creates generalizable evidence-based practices, processes, and procedures;
    1&    Capitalizes on the CJ-DATS research infrastructure to increase knowledge about
          effective models of integration with criminal justice, public health and social service, and
          drug abuse treatment systems; and
    ..    Uses rigorous study designs to yield valid and reliable findings.

Concepts approved by the SC may proceed to protocol development, which is also reviewed by
the RM and sc.

                                                                                                   18
                                                                                                ATTACHMENT A
                                                                                                Page 20 of2l




For each study protocol, NIDA's CJ-DATS has an extensive process for ensuring the data are
collected, verified, cleaned, analyzed, and reported in a systematic and consistent manner. CJ­
DATS has a Data Management Committee (DMC) that includes one or more representatives
from each Research Center, which develops data collection and processing rules and monitors
compliance across all protocols. The CJ-DATS Coordinating Center (CC) implements those
rules and works in collaboration with the DMC to ensure quality control in the collection, entry,
verification, and documentation of data. NIDA staff actively monitors each study protocol and
participate in regular meetings of the DMC and CC. Briefly, the process is as follows:

   1. 	 The DMC and CC worked collaboratively to establish overall data tracking, collection,
        and quality control procedures to ensure the collection of accurate data using reliable and
        valid measures consistently across all protocols. Any deviations from established data
        collection/entry protocols must first be approved by the DMC before being implemented.
   2. 	 The DMC developed data collection forms recognizable by TeleForm scanners (a
        commercial Optical Character Recognition software) and created templates for exporting
        scanned data into the statistical software system. Teleform eliminates the need for most
        hand-keying of data, thus improving accuracy of data entry.
   3. 	 The DMC and CC developed protocols for data quality checks to be followed by each
        Research Center before scanning data into the TeleForm system. Back-up procedures
        were developed for forms that could not be successfully scanned for any reason.
   4. 	 Research Centers upload new data on a no-less-than monthly basis to a secure online
        system monitored by the CC. After receiving data uploads from Research Centers, CC
        staff complete extensive verification procedures to ensure the data's quality. This process
        includes reviewing automatic alerts generated by the TeleForm software and manually
        verifying all data fields.
   5. 	 CC staff follows set protocols for communicating with personnel at each Research Center
        to verify and correct any mistakes identified in their manual review of scanned data.
   6. 	 After the CC verifies the accuracy of the data and corrects any mistakes, data files are
        made available to a data analysis subcommittee for each protocol. Each committee is led
        by an expert in quantitative analysis and includes staff from each RC. This committee
        reviews each data file in detail and completes a number of sophisticated analyses to check
        for possible errors (outliers, validation, etc.) that were not identified as part of the manual
        process described above. Errors, omissions, and other issues are documented for each
        RC, and corrections are requested within given time parameters.
   7. 	 Data files are considered ready for analysis only after the data analysis subcommittee and
        the CC complete all checks and are confident of the data's integrity. These "locked" files
        are then uploaded to a secure web-based file system where they are made available for
        analysis. A separate analytic file request/approval process managed by NIDA staff
        ensures documentation of the use of each analytic file~by whom and for what purpose.
        This process avoids duplication of effort and ensures that only the current version of an
        analytic file is in use, and that the use is appropriate given the measures in the data file.
   8. 	 The CC staff has also implemented a comprehensive inventory detailing the status and
        ultimate disposition of every form distributed to the RCs for data collection. Those data
        are used to calculate response rates and to ensure that every completed form is included
        in the analytic files.


                                                                                                    19 

                                                                                           ATTACHMENT A
                                                                                           Page 21 of21




In addition to the procedures outlined above, the DMC holds weekly calls to review any
problems that emerge as part of this process. Key decisions or changes to procedures are
documented and disseminated to the cooperative via the project's secure website. Logs are used
to track the transfer of files among analysts.

Data collection is still in progress for CJ-DATS protocols. As analytic work begins in earnest in
FY2013, structured procedures will be developed and implemented to ensure accurate
calculation and reporting of response rates, consistent use of syntax and documentation for
constructed variables, minimum requirements for computed variables (e.g., scale reliabilities and
factor weighting), etc.

Methodology Used to Establish Targets/Actuals

The targets to date have been to establish the network and its collaborations, and to develop
protocols for implementation. These targets were established based on the initial steps that must
be taken prior to conducting a research study. Upcoming targets will be established based on the
protocols currently under development. As discussed above, these protocols undergo a rigorous
review process to determine which research areas hold the most promise for filling gaps and
should therefore be prioritized for testing. The target values will be based on sound
methodological procedures and related timelines set for each protocol.              While these
methodologies cannot precisely predict the course of a study, the likely path of implementation
and timing is based on knowledge gained from earlier research and will be used to generate the
targets for this measure.

Data 5'ources

Each site conducting a CJ-DATS study is responsible for the collection, cleaning, and
documentation of data in that study. The data must conform to predetermined parameters
described in     written protocols that establish how, what, and when the data are collected.
data are then transmitted to the coordinating center, which is responsible for monitoring data
files. An Information Management (1M) workgroup provides oversight and direction for data
management, cleaning, and archiving of data. The data are stored confidentially and provide the
resource for data analysis to determine program success.
                                                                             ATTACHMENT B


   DEPARTMENT OF HEALTH II. HUMAN SERVICES                              Public Health Service



                                                                        National Institutes of Health 

                                                                        Bethesda, Maryland 20892 





DATE:         January II , 20 13

TO:           Stcphen VirbilSky
              Regional Inspector General for Audit Services, HHS

FROM:         Director, Division of Program Coordination,
              Planning, and Strategic Initiatives, NIH

SUBJECT:      NIH Review of Draft HHS Office of Inspector General (OIG) Report A-03-13­
              00354 on NU-J's FY 2012 ONDCP Performance Attestations


Thank you for the opportun ity to review the I-II-IS OIG Draft Report Regarding NIH's FY 2012
ONDep Performance Attestations. NIH does not have any comments about the report.



                                           Jam s. M. Anderson, MO, PhD
